U.S. Department of Labor

                                                                           EMPLOYMENT AND TRAINING
                                                                           ADMINISTRATION

                            Office of Inspector General—Office of Audit





                                                                           JOB CORPS NEEDS TO IMPROVE CONTROLS
                                                                           OVER STUDENT TRAVEL FUNDS




                                                                                         Date Issued:      April 29, 2014
                                                                                      Report Number:    26-14-001-03-370
U.S. DEPARTMENT OF LABOR                                  April 2014
OFFICE OF INSPECTOR GENERAL
Office of Audit                                           JOB CORPS NEEDS TO IMPROVE CONTROLS
                                                          OVER STUDENT TRAVEL FUNDS

BRIEFLY…                                                  WHAT OIG FOUND

Highlights of Report Number: 26-14-001-03-370, issued     We identified $249,477 in questioned costs due to
to the Assistant Secretary for Employment and Training.   center staff and students using prepaid debit cards for
                                                          personal gain and $116,633 in wasteful spending on
WHY READ THE REPORT                                       unnecessary merchant fees for the cards and unused
                                                          card balances. We also identified frequent suspensions
From July 1, 2011, through June 30, 2012, the Office of   of center government purchase card accounts due to
Job Corps (Job Corps) spent $21.2 million on student      delinquency or non-payment, costing Job Corps at least
travel expenses for initial trips to Job Corps centers,   $496,258 in lost discounts on government airfares and
admissions, transitions (e.g., transfers and              merchant fees; $39,747 in questioned costs due to
separations), and winter and summer break. This report    unsupported travel expenses (projected to $4.2 million
highlights instances where hundreds of thousands of       based on our statistical testing); and non-compliance
dollars in government funds were misused or wasted        with competitive bidding requirements.
because Job Corps lacked basic internal controls over
its student travel expenses, and opportunities where      These conditions occurred because basic internal
funds could be put to better use.                         controls over centers’ prepaid debit cards and purchase
                                                          card transactions (e.g., regular oversight, requiring
WHY OIG CONDUCTED THE AUDIT                               signed supervisor approvals and documentary support
                                                          for claimed costs) were lacking. In total, we believe
In May 2012, the Assistant Secretary for Employment       improved internal controls could result in better use of
and Training (ETA) requested the OIG review               an estimated $5.1 million in Job Corps funds.
allegations that a center employee used hundreds of
prepaid debit cards, intended for students, to pay for    WHAT OIG RECOMMENDED
personal purchases. In response to this request, we
conducted an audit to answer the following question:      We recommended the Assistant Secretary for
                                                          Employment and Training require centers and Job
   Were all student travel expenses claimed by Job       Corps management to improve internal controls,
    Corps centers allowable and in accordance with        including processes and oversight, to ensure center
    applicable policies and requirements?                 student travel expenses are allowable, necessary,
                                                          prudent, and competitively bid. Additionally, the OIG
READ THE FULL REPORT                                      recommended Job Corps determine why centers’
                                                          government purchase card accounts were suspended
                                                          and collect $289,224 in questioned costs from
To view the report, including the scope, methodology,
                                                          applicable center operators.
and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2014/26-14­
                                                          The Assistant Secretary agreed with our results and
001-03-370.pdf.
                                                          recommendations and stated ETA has taken steps to
                                                          address the issues identified in the report and will take
                                                          additional steps to ensure all student travel expenses
                                                          are allowable, necessary, prudent, and well
                                                          documented, and that center operators’ contracting
                                                          programs utilize a competitive process for procuring
                                                          travel services. ETA will also pursue collection of the
                                                          questioned costs.
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                            Controls Over Student Travel Funds
                                  Report No. 26-14-001-03-370
                                                       U. S. Department of Labor – Office of Inspector General



Table of Contents


Inspector General’s Report .......................................................................................... 1


Results ........................................................................................................................... 2


Objective – Were all student travel expenses claimed by Job Corps centers 

allowable and in accordance with applicable policies and requirements?.............. 2

          A) Job Corps’ inadequate controls over prepaid debit cards resulted in 

             misuse of student travel funds by center staff and students............................ 2

          B) Student travel purchased with government purchase cards was not

             managed effectively and efficiently. ................................................................ 9


Recommendations ...................................................................................................... 15


Exhibits
          Exhibit A Misuse of Prepaid Debit Cards at 95 Centers ..................................... 19

          Exhibit B Examples of Centers’ Government Purchase Card Accounts

             Suspended for Delinquency or Non-Payment during October 2009 

             through April 2013......................................................................................... 21

          Exhibit C Questioned Costs Paid By Centers’ Government Credit Cards .......... 23


Appendices
          Appendix A Objectives, Scope, Methodology, and Criteria ................................ 27

          Appendix B Acronyms and Abbreviations........................................................... 31

          Appendix C ETA Response to Draft Report ....................................................... 33

          Appendix D Acknowledgements ......................................................................... 39





                                                                                   Controls Over Student Travel Funds
                                                                                         Report No. 26-14-001-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                            Controls Over Student Travel Funds
                                  Report No. 26-14-001-03-370
                                                  U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                               Office of Inspector General
                                                       Washington, D.C. 20210




                                        Inspector General’s Report
April 29, 2014


Mr. Eric Seleznow
Acting Assistant Secretary
 for Employment and Training
200 Constitution Avenue, NW
Washington, D.C. 20210

The Employment and Training Administration’s (ETA) Office of Job Corps (Job Corps)
program provides education, training, and support services to approximately 60,000
students each year at 125 Job Corps centers located throughout the United States and
Puerto Rico. 1 Job Corps pays for certain intercity student travel expenses, but relies on
centers to arrange travel (e.g., air, bus, and rail transportation) for their students. One
hundred and fourteen centers used the same travel agency, Transcor, Inc. (Transcor),
while the remaining 11 centers used other travel agencies or booked directly with the
travel service providers. In program year (PY) 2011, Job Corps spent approximately
$21.2 million on student travel. 2

In May 2012, the Assistant Secretary for Employment and Training requested the Office
of Inspector General (OIG) review allegations made by Transcor that a Miami Job Corps
Center employee used hundreds of prepaid debit cards for personal purchases. The
prepaid cards were intended for use by traveling students for checked baggage and
meals. In response to this request, we conducted an audit to answer the following
question:

         Were all student travel expenses claimed by Job Corps centers allowable
         and in accordance with applicable policies and requirements?

Our work generally covered July 1, 2011, to September 30, 2012. For instances where
possible patterns of errors or irregularities were detected, we expanded our scope to
include October 1, 2009, through April 30, 2013. We interviewed management and staff
at ETA, Job Corps, Job Corps centers, and Transcor; reviewed applicable laws,
regulations, policies, processes, and controls; reviewed all student prepaid debit card
activity for the 104 centers that purchased cards from Transcor (including the Miami
center); tested a stratified random sample of student travel expenses and refunds
charged to the centers’ government purchase cards by all 125 centers; and tested a

1
  Job Corps is authorized by Title I-C of the Workforce Investment Act of 1998 and is administered by ETA, under the
leadership of the National Director, supported by Job Corps’ national office and field network of six regional offices.
2
  PY 2011 spanned from July 1, 2011, through June 30, 2012

                                                                            Controls Over Student Travel Funds
                                                           1                      Report No. 26-14-001-03-370
                                                U. S. Department of Labor – Office of Inspector General


judgmental selection of high-dollar, travel-related purchases reported on Job Corps’
ETA-2110 Financial Statements by all 125 centers to determine if the amounts were
reasonable and procured in accordance with Federal Acquisition Regulation (FAR)
principles.

RESULTS

Objective – Were all student travel expenses claimed by Job Corps centers
            allowable and in accordance with applicable policies and
            requirements?

        Hundreds of thousands of dollars in government funds were misused or
        wasted because Job Corps lacked basic internal controls.

Our review of prepaid debit cards transactions identified $249,477 in questioned costs
due to center staff and students using the cards for personal gain and $116,633 in
wasteful spending on unnecessary merchant fees and unused card balances. Our
review of student travel procured with government purchase cards identified frequent
suspensions of center purchase card accounts due to delinquency or non-payment,
costing Job Corps at least $496,258 in lost discounts on government airfares and
merchant fees; $39,747 in questioned costs due to unsupported travel expenses
(projected to $4.2 million based on our statistical testing); and non-compliance with
competitive bidding requirements.

These conditions occurred because basic internal controls over centers’ prepaid debit
cards and purchase card transactions (e.g., regular oversight, requiring signed
supervisor approvals and documentary support for claimed costs) were lacking. In total,
we believe improved internal controls could result in better use of an estimated $5.1
million in Job Corps funds. 3

A) Job Corps’ inadequate controls over prepaid debit cards resulted in misuse of
   student travel funds by center staff and students.

Job Corps center staff and students at 98 centers significantly misused prepaid debit
cards resulting in questioned costs totaling $249,477. We found 104 centers purchased
cards from Transcor. We reviewed the card activity for all 17,796 cards provided by
Transcor and found 6,198 (34.8 percent) were used to pay for goods and services
unrelated to student travel (e.g., consumer electronics, clothing, wireless telephone
service). Over $96,000 of these improper purchases were made by Miami center staff,
confirming that Transcor’s allegations had merit. Furthermore, the inefficient use of
prepaid debit cards resulted in at least $116,633 in unnecessary merchant fees and
unused balances (which lapsed and are no longer available for use) that could have
been put to better use. Debit card purchases also exceeded Job Corps’ established
allowable spending limits by a total of $36,418 because the limits were too restrictive;

3
 This amount was derived from the total of $249,477 in questioned prepaid debit card costs, $116,633 in wasteful
spending, $496,258 in lost discounts, and $4.2 million in estimated questioned purchase card transactions.

                                                                        Controls Over Student Travel Funds
                                                         2                    Report No. 26-14-001-03-370
                                                U. S. Department of Labor – Office of Inspector General


and four centers had between $9,310 and $35,660 of unused cards on hand, subjecting
the centers to increased risk of fraud and theft.

These conditions occurred because most centers lacked basic internal controls over
prepaid debit cards and Job Corps’ national and regional offices did not place sufficient
management emphasis on reviewing and monitoring the use of debit cards to ensure
student travel costs were allowable and prudent.

Job Corps pays student travel expenses for initial visits, admissions, transitions
(e.g., transfers, travel home after students leave the program), and summer and winter
breaks. These expenses are paid directly by Job Corps via the centers’ government
purchase cards or the respective center operators and reimbursed by Job Corps
through contract modifications. Job Corps relied on centers to procure their own student
travel arrangements for air, bus, rail, or charter service, which accounted for
$21.2 million in PY 2011. Any other trips, such as trips home, are generally arranged
and paid for by students. Of the 125 centers, 114 centers, including the Miami center,
used the same commercial travel agency, Transcor. The remaining 11 centers used
other travel agencies, travel websites, or made arrangements directly with
transportation providers.

In May 2009, Job Corps began issuing prepaid debit cards to students, in lieu of petty
cash, so they could pay for checked baggage charges incurred during official travel. Job
Corps gradually expanded the use of the cards to also pay for meals while in transit.
The cards were preloaded with funds in amounts ranging from $10 to $60. Transcor
charged centers a $6 merchant fee for each card issued. Job Corps’ policy limited the
use of these cards to one checked bag when going on leave ($25), two checked bags
for new enrollees and separations ($60), and $5 for each meal missed due to travel. 4
In April 2012, a senior executive at Transcor notified Job Corps that a Miami center
employee allegedly misused prepaid debit cards intended for student travel. Job Corps
asked Transcor to determine the extent of the issue and to provide documentation of
the transactions. Job Corps found transactions for a wide array of personal uses
(e.g., purchases from hair salons, clothing stores, and non-travel websites). Transcor's
records showed the center had ordered hundreds of cards since 2011, but relatively few
were actually used for student travel. In May 2012, the Assistant Secretary for
Employment and Training requested the OIG review these allegations.

Prepaid debit cards were misused at 98 centers.

We requested a complete list of prepaid debit cards purchased by all 125 centers
and found Job Corps was unable to provide this information because neither Job
Corps nor the centers tracked and monitored card activities. However, we obtained
this information from Transcor for the 104 centers that purchased debit cards from
them. Transcor provided us purchase detail for cards that were used during
July 1, 2011, through September 30, 2012. For instances where possible patterns of

4
    Job Corps’ Policy Requirements Handbook (PRH), Chapter 6, Section 6.6

                                                                       Controls Over Student Travel Funds
                                                        3                    Report No. 26-14-001-03-370
                                               U. S. Department of Labor – Office of Inspector General


errors or irregularities were detected, we expanded our scope to include cards used
during December 1, 2009, through March 31, 2013, and referred these instances to
the OIG’s Office of Labor Racketeering and Fraud Investigations (OLRFI) for
potential criminal investigation. In total, Transcor provided details for 17,796 cards
issued to the 104 centers during the periods we reviewed.

We analyzed the purchases made with each of the 17,796 cards to determine whether
they complied with the Federal Travel Regulation (FTR), Department of Labor Manual
Series (DLMS), and Job Corps' policy for allowable student travel expenses and
spending limits. The FTR and DLMS require that agencies must limit the authorization
and payment of travel expenses to travel that is necessary to accomplish the agency's
mission in the most economical and effective manner, giving consideration to budget
constraints, adherence to travel policies, and reasonableness of expenses. Job Corps’
student travel policy limits prepaid debit card use to baggage check fees and meals.
Any purchases other than for official travel are considered improper.

In addition, the Standards for Internal Control in the Federal Government state that an
agency must establish physical control to secure and safeguard vulnerable assets.
Examples include security for and limited access to assets such as cash and
inventories, which might be vulnerable to risk of loss or unauthorized use. Such assets
should be periodically counted and compared to control records. These standards also
recommend designing internal controls to generally assure that ongoing monitoring
occurs in the course of normal operations, including regular management and
supervisory activities, comparisons, reconciliations, and other actions people take in
performing their duties. 5

We found 6,198 of the 17,796 cards (34.8 percent) were misused to purchase
non-student travel goods and services (e.g., consumer electronics, clothing, wireless
telephone service, online purchases), resulting in questioned costs totaling $249,477.
These improper purchases occurred at 98 of the 104 centers reviewed. For example:

         At the Miami Center (located in Miami Gardens, FL, and operated by
          ResCare, Inc.), we found 1,823 cards were misused to make improper
          purchases totaling $96,784. We reviewed the debit card purchase activity
          Transcor provided covering all activity several months before and after the
          alleged misuse, July 1, 2010, through September 30, 2012. The numerous
          improper purchases of personal goods and services were made from a
          wide array of vendors, including hair salons, clothing stores, and wireless
          telephone service providers (e.g., Sprint), confirming that the allegations
          had merit. In response to results presented during our audit, ResCare,
          Inc., conducted its own investigation; generally agreed with our results;
          determined at least $94,796 of these improper purchases were made by
          Miami center employees; initiated corrective actions to strengthen its


5
    United States Government Accountability Office (GAO), GAO/AIMD-00-21.3.1 (Washington, DC: November 1999)

                                                                     Controls Over Student Travel Funds
                                                       4                   Report No. 26-14-001-03-370
                                     U. S. Department of Labor – Office of Inspector General


       centers' fiscal controls over prepaid debit cards; and terminated 3 center
       employees. Two other center employees resigned.

      At the Muhlenberg Job Corps Center (located in Greenville, KY, and
       operated by Horizon Youth Services), we initially found 478 cards were
       misused to make improper purchases totaling $16,331. Examples
       included clothing purchases at Kohl's and JC Penney. Job Corps and
       Horizon Youth Services agreed with our results; conducted their own
       investigation; and determined a center employee misused hundreds of
       cards for personal gain. The investigation covered the employee's length
       of employment at the center (December 2009 – March 2013), found
       1,383 cards had been misused totaling $47,659, and resulted in the
       employee's termination.

      At the Tongue Point Job Corps Center (located in Astoria, OR, and
       operated by Management and Training Corporation (MTC)), we found
       51 cards were misused to make improper purchases totaling $897. Job
       Corps and MTC generally agreed with our results and determined that a
       center employee had misused cards for personal gain. The center
       operator terminated the employee.

      At the other 95 centers, we found 2,941 cards were similarly misused to
       make purchases for personal goods and services totaling $84,595. See
       Exhibit A for details.

In addition to questioning the aggregate of these expenses, totaling $229,935, we
also questioned $19,542 ($6 x 3,257) in merchant fees associated with the purchase
of the 3,257 cards by the Miami, Muhlenberg, and Tongue Point centers. We did not
question the merchant fees associated with the 2,941 cards purchased by the other
centers because the same cards were used to make both allowable and unallowable
purchases. In total, we questioned $249,477 in improper purchases made by center
employees, along with the associated fees, as summarized in Table 1 below.




                                                        Controls Over Student Travel Funds
                                            5                 Report No. 26-14-001-03-370
                                                U. S. Department of Labor – Office of Inspector General




Table 1: Summary of Prepaid Debit Card Misuse
                                                                                 Debit Card
                                                           Job Corps          Merchant Fees
                                              No. of     Funds Used            (No. of cards
Center                                        Cards      for Personal             used x $6     Questioned
(Center Operator)          Location            Used              Gain          merchant fee)         Costs
Miami                      Miami                                                     $10,938
                                               1,823              $96,784                         $107,722
(ResCare, Inc.)            Gardens, FL                                           (1,823 x $6)
Muhlenberg
                           Greenville,	                                               $8,298
(Horizon Youth                                 1,383              $47,659 	                        $55,957
                           KY	                                                   (1,383 x $6)
Services)
Tongue Point                                                                            $306
                           Astoria, OR            51                 $897                           $1,203
(MTC)                                                                               (51 x $6)
                          Subtotals            3,257         $145,340                $19,542      $164,882
95 centers with
various operators                              2,941              $84,595                   -      $84,595
See Exhibit A for details.
                           Totals              6,198         $229,935                $19,542      $249,477
Source: OIG analysis of Job Corps' data


Job Corps and most of the 95 centers with various center operators acknowledged
purchases were unrelated to student travel. However, we could not always determine
whether these improper purchases were made by students, center staff, or both
because the centers did not consistently track card distribution to students. The lack
of consistent tracking continued to occur even after a directive was issued by Job
Corps’ National Director in May 2012 requiring centers to track distribution. The
directive was issued in response to the allegations Job Corps received regarding
prepaid debit card misuse at the Miami center.

Prepaid debit cards were not managed efficiently.

The manner in which Job Corps managed its prepaid debit cards resulted in
unnecessary merchant fees and unused card balances. In addition, debit card
purchases exceeded Job Corps’ established allowable spending limits and four
centers increased the risk of fraud and theft by maintaining large amounts of unused
cards on-hand. These cost inefficiencies are detailed as follows:

          Job Corps did not comply with FTR and DLMS requirements to limit travel
           expenses to travel that is necessary to accomplish the agency's mission in
           the most economical and effective manner. 6 As noted earlier, each
           prepaid debit card, which ranged in value from $10 to $60, costs Job

6
    FTR, Part 301-70; and DLMS-7, Chapter 1, Subpart B, 1-1.101

                                                                         Controls Over Student Travel Funds
                                                         6                     Report No. 26-14-001-03-370
                                                U. S. Department of Labor – Office of Inspector General


        Corps $6 in merchant fees, or up to 60 percent of the card’s value
        ($6/$10). These fees could have been avoided had the centers used their
        government purchase cards to pay for baggage check fees online and
        used restaurant meal cards or cash in lieu of the prepaid debit cards. In
        aggregate, we found Job Corps paid approximately $87,234 ($6 x 14,539)
        in unnecessary merchant fees to Transcor for the 14,539 prepaid debit
        cards we reviewed that were purchased by centers. 7 These wasted funds
        could have been put to better use if Job Corps had used these available
        cost efficient alternatives instead of debit cards.

       Job Corps prepaid full value for debit cards, regardless of whether the full
        value was eventually used. We found 4,026 prepaid debit cards were
        partially used and carried approximately $29,204 in wasted, unused
        balances. Completely unused cards could be returned to Transcor for a
        refund of the full value, whereas a partially used card could not be
        refunded. This wasteful spending also could have been put to better use if
        Job Corps had used available cost efficient alternatives instead of debit
        cards.

       Students used 1,757 cards for checked-baggage charges and meals that
        exceeded Job Corps' per bag and meal spending limits by a total of
        $36,418. Our review of these charges did not identify any instances of
        abusive spending, with the excess costs being more indicative of
        restrictive spending limits that were not always practical rather than lack of
        center oversight. As such, we noted the centers were not always in
        compliance with Job Corps’ policy, but considered the costs reasonable
        and valid. Job Corps needs to update its spending limits to practical
        amounts so compliance can be enforced.

       Four centers had excessive amounts of unused cards, which increased
        the risk of fraud and theft. Because centers could order cards as needed
        and had other options to pay for checked baggage and meals, we
        considered inventories of unused cards valued over $5,000 excessive.
        The four centers collectively held 2,105 unused cards, totaling $72,240 −
        $35,660 at Clearfield Job Corps Center, $17,120 at Earle C. Clements Job
        Corps Center, $10,150 at Treasure Island Job Corps Center, and
        $9,310 at Frenchburg Job Corps Center. In response to our audit, Job
        Corps required centers to return all unused cards older than 90 days for
        refund.




7
  This amount was derived from the total prepaid debit cards reviewed (17,796) less the aggregate number of cards
involving improper purchases for the Miami, Muhlenberg, and Tongue Point centers (3,257). The merchant fees for
those centers were included in the exception amounts noted on page 5. Additionally, our analysis of related merchant
fees were limited to Transcor transactions because Job Corps could not provide detailed information related to debit
card purchases from other travel agencies or vendors.

                                                                        Controls Over Student Travel Funds
                                                         7                    Report No. 26-14-001-03-370
                                     U. S. Department of Labor – Office of Inspector General


Controls over prepaid debit cards need improvement.

Overall, there was ineffective monitoring of prepaid debit card ordering and usage by
centers and Job Corps, which led to misuse of cards at 98 of the 104 centers reviewed
(94 percent). We found most centers did not have adequate controls over the cards as
emphasized by the Standards for Internal Control in the Federal Government. We
believe, at a minimum, the centers should have maintained tracking logs, conducted
independent reviews and reconciliations, ensured the volume of cards purchased
aligned with actual needs, and periodically reviewed card activity for proper use. Job
Corps’ national and regional offices also did not place sufficient management emphasis
on establishing processes for distributing and monitoring prepaid debit cards to ensure
expenses were allowable, necessary, and reasonable. This misuse occurred for several
years allowing center staff and students to spend $229,935 in government funds for
personal gain. While ETA notified the OIG about the Miami center, Job Corps was not
aware of the misuse until the center’s travel agency identified and reported the
activities.

Additionally, some centers and Job Corps regional offices lacked clarity regarding the
FTR, DLMS, and Job Corps’ requirements relative to prepaid debit cards and did not
always agree that student purchases of non-travel goods and services, such as
electronic equipment and clothes, were improper. For example, Job Corps’ Philadelphia
regional office, which oversees 20 centers, told us in August 2013 that it agreed the
intention behind the prepaid cards was not followed. However, the region believed Job
Corps and the centers should not be held responsible for student behavior once that
student was no longer at the center. The region also stated Job Corps did not have a
policy governing the use of prepaid debit cards, nor has it been a requirement to track
their usage, and that a Job Corps’ national office policy governing prepaid debit cards
was greatly needed. As we previously noted, a directive requiring centers to track
prepaid debit cards was issued by the Job Corps’ National Director in May 2012.

Job Corps officials concurred that a higher level of monitoring of prepaid debit cards
was warranted. During the audit, Job Corps took action to address some of our
concerns and issued policy revisions: (1) limiting prepaid debit card use to students for
airline baggage charges when online check-in was not available; (2) limiting centers
from maintaining more than 10 cards; (3) prohibiting bulk orders of cards unless
approved by the regional offices; and (4) re-emphasizing the requirement that centers
maintain a tracking log for the cards. We believe effective implementation of internal
controls over prepaid debit cards will prevent improper purchases, such as the ones we
identified, which resulted in questioned costs totaling $249,477. Additionally,
$116,633 in expenses − the aggregate of $87,234 in unnecessary merchant fees and
$29,399 in wasted unused balances – could also be avoided in the future and put to
better use if Job Corps effectively implemented controls.




                                                        Controls Over Student Travel Funds
                                            8                 Report No. 26-14-001-03-370
                                      U. S. Department of Labor – Office of Inspector General


B) Student travel purchased with government purchase cards was not managed
   effectively and efficiently.

Our audit also found Job Corps’ management of student travel procured with
government purchase cards resulted in unnecessary and unsupported travel costs. Job
Corps experienced frequent suspensions of its centers' government purchase card
accounts due to delinquency or non-payment, costing Job Corps at least $496,258 in
lost discounts on government airfares and merchant fees. Based on statistical sampling,
we estimated $4.2 million in student travel expenses were questionable because
centers could not provide the necessary evidence showing the costs were for students,
supported by invoices/receipts, or met Job Corps’ requirements for chargeable travel.
Improved fiscal management in this area would result in better use of Job Corps’ funds.
In addition, we identified 9 purchase card transactions for bus rentals, totaling $474,038,
that lacked sufficient evidence of competitive bidding or justification that competition
was not required as described in the FAR. These conditions occurred because most
centers lacked basic internal controls over purchase card transactions (e.g., ensuring all
travel expenses were allowable, necessary, and reasonable; maintaining supporting
documentation). Job Corps’ national and regional offices also did not place sufficient
management emphasis on reviewing and monitoring purchase card transactions.

Centers’ government purchase cards were frequently suspended for delinquency or
non-payment and cost Job Corps at least $496,258.

Job Corps unnecessarily paid at least $496,258 in lost discounts on government
airfares and merchant fees due to mismanagement of its centers’ purchase card
accounts. Office of Management and Budget (OMB) Circular A-123, Appendix B, 4.4,
required Job Corps to ensure payment obligations were paid on time, delinquent
payments were addressed, and corrective actions were taken to prevent further
occurrence. Despite these requirements, center accounts in Job Corps’ Boston,
Chicago, and San Francisco regional offices were frequently suspended for delinquency
or non-payment during October 2009 through April 2013 (see Table 2 below). As a
result, centers were not able to obtain government airfares. Instead, Transcor
purchased commercial airfares, which were often more than 50 percent higher than
government airfares, and charged Job Corps fees for purchasing travel and obtaining
reimbursement.




                                                         Controls Over Student Travel Funds
                                             9                 Report No. 26-14-001-03-370
                                            U. S. Department of Labor – Office of Inspector General



Table 2: Number of Months During Which Suspensions of Centers' Government
Purchase Card Accounts Occurred for Delinquency or Non-Payment
(October 2009 – April 2013)
      Boston Region                       Chicago Region             San Francisco Region
Center                 Months Center                   Months    Center               Months
Arecibo                   35      Atterbury                1     Cascades                 7
Barranquitas              32      Blackwell                1     Centennial               7
Cassadaga                 40      Cincinnati               1     Columbia Basin           7
Delaware Valley           38      Cleveland                1     Fred G. Acosta           7
Edison                    18      Dayton                   1     Los Angeles              7
Glenmont                  34      Denison                  1     Sacramento               7
Oneonta                   35      Detroit                  1     San Diego                7
Iroquois                  33      Excelsior Springs        4     Springdale               7
Ramey                     34      Flint Hills              1     Timber Lake              7
South Bronx               30      Flint/Genesee            1     Tongue Point             7
Westover                   2      Gerald R. Ford           1     Wolf Creek               7
                                  Golconda                 1
                                  Hubert Humphrey          1
                                  Joliet                   1
                                  Milwaukee                1
                                  Mingo                    1
                                  Ottumwa                  1
                                  Paul Simon               1
                                  Pine Ridge               1
                                  St. Louis                1
Source: OIG analysis of Job Corps' data


See Exhibit B for the periods when purchase card accounts were suspended by region
and center.

The purchase card deactivation for just the Boston region cost Job Corps at least
$415,758 – the cost savings lost from paying commercial airfares. In response to the
frequent purchase card account suspensions, Transcor analyzed the impact the
purchase card account suspensions had on the Boston region from March 2010 to
November 2011 and informed Job Corps of the lost costs savings in November 2011.
The analysis showed Job Corps paid commercial airfares for 2,150 flight segments
during this period, totaling $723,758. If the centers had been able to use their
government purchase cards and obtained the discounted government airfares, which
averaged 57 percent lower than the commercial fares for this period, Job Corps would
have paid approximately $308,000. As a result, Job Corps was unable to benefit from
these cost-savings and paid travel costs that could have been avoided.

While Transcor told us Job Corps' issues with suspended cards started as early as
2008, its records only went back to March 2010. As such, Transcor’s analysis
represented only a portion of Job Corps’ lost cost savings as the period reviewed was

                                                                Controls Over Student Travel Funds
                                                  10                  Report No. 26-14-001-03-370
                                             U. S. Department of Labor – Office of Inspector General


limited and the affected centers in the Chicago and San Francisco regions were not
included. Job Corps’ national office did not take sufficient action on the information
provided by Transcor in November 2011 and center accounts continued to be
suspended due to delinquency or non-payment through April 2013. Moreover, Job
Corps’ national and regional offices could not explain the reasons the accounts were
suspended and stated they did not know if payments had not been made or if payments
were made and not properly credited. They also stated Job Corps is working with DOL’s
Office of the Chief Financial Officer and ETA's Office of Financial Administration to
resolve these delinquency issues.

Transcor also estimated it charged Job Corps at least $80,500 in merchant fees, which
could have been avoided. For example, in an effort to limit costs in PY 2011, Job Corps
froze all 125 centers' government purchase card accounts from June 8, 2012, through
July 1, 2012; prohibited the accounts from being used to pay for summer break travel
arrangements during this period; and pushed the start of the summer break period from
June 28, 2012, to July 3, 2012 – a popular and higher-cost travel time due to the
July 4th holiday. Centers used travel agencies or center corporate cards to pay for
reservations to ensure students had transportation for the break. During this freeze,
Transcor told us it paid over $500,000 to arrange bus transportation for students. In
these instances where centers were unable to use their government accounts, Transcor
charged Job Corps a merchant fee of 3 percent per ticket price.

The suspension of center purchase cards also impacted Job Corps’ ability to effectively
manage its centers’ operating budgets. Job Corps told us that funding student travel
through center operator reimbursement was rare and only used for unusual
circumstances. However, we reviewed all ETA-2110 reports for the period July 1, 2011,
through September 30, 2012, and found Job Corps spent $1.6 million to reimburse
student travel paid by 28 centers. This occurred because center operators sometimes
used their own funds to purchase student travel when the government purchase card
accounts were suspended. Purchases made in this manner were then reimbursed to the
center operator through contract modifications, increasing the overall value of the center
operating contract by amounts that were not budgeted. This increased center costs and
required both center operator and ETA resources to award the contract modifications.

Centers’ government purchase card expenses lacked adequate supporting
documentation.

Travel regulations and policies stated in the FTR and the DLMS provide guidance for
proper authorizing officials approving (i.e., authorizing) estimated travel costs before
expenses are incurred and reviewing claimed expenses to ensure all expenses are
authorized, reasonable, allowable, necessary, and supported with receipts. 8
Additionally, Appendix B of OMB Circular A-123, “Improving the Management of
Government Charge Card Programs,” requires charge card managers to implement risk
management controls, policies, and practices to ensure card statements and supporting

8
 FTR, Section 301-71.103, 301-71.104, 301-52.4, and 301-70.100; DLMS-7, Chapter 1, Subparts B 1-1.101 and
1.102; and DLMS-7, Chapter 1, Part 11 1-11.3

                                                                    Controls Over Student Travel Funds
                                                     11                   Report No. 26-14-001-03-370
                                                 U. S. Department of Labor – Office of Inspector General


documentation are reviewed and utilized to monitor misuse and other transaction
activities. The Standards for Internal Control in the Federal Government also state all
transactions and other significant events need to be clearly documented and
documentation should be readily available. 9

We statistically sampled 215 purchase transactions, totaling $624,491, or 2 percent of
the $31 million in student travel costs charged to the centers' government purchase
cards during July 1, 2011, through September 30, 2012. We determined whether the
travel expenses were for Job Corps students; supported by travel authorizations,
claims, and receipts/invoices in accordance with the FTR and DLMS guidance; and met
Job Corps' requirements for chargeable travel.

While the centers were able to show 93.6 percent ($584,744) of the purchases reviewed
were allowable, many of them needed detailed instructions on what constituted
adequate support for expenses and needed several months to locate the evidence
when it should have been readily available for examination. For example, many centers
provided incorrect student profiles, invoices, and receipts to support claimed costs and
needed assistance to locate the correct, corresponding documentation. The remaining
6.4 percent ($39,747) of these purchases were questionable for the following reasons: 10

        7 purchases, totaling $25,895, did not have documentation supporting the 

         costs were for students or potential enrollees (i.e., no student profiles or

         other supporting documentation was provided).


        26 purchases, totaling $15,295, did not have invoices/receipts supporting 

         the claimed costs were valid.


        15 purchases, totaling $10,078, did not have documentation supporting

         the travel met Job Corps requirements for chargeable travel

         (e.g., admissions, separations, breaks).


Based on these results, we estimated $4.2 million was questionable for the period
July 1, 2011, through September 30, 2012. 11

Additionally, we found 53.5 percent (115 of 215) of the purchase transactions reviewed
lacked adequate documentation to show evidence that basic internal controls were
applied, such as approved travel authorizations and claims for every trip. Even though
Job Corps did not require centers to provide this level of oversight, we believe effective
implementation of internal controls over government purchase card transactions would
improve Job Corps’ accountability of its student travel funds.

9
  GAO, GAO/AIMD-00-21.3.1 (Washington, DC: November 1999)
10
   In total, we found 34 transactions were unallowable for one or more of the three reasons stated (e.g., lack of
evidence to show charges were for actual students, missing invoices/receipts). As a result, the aggregate number
and value of the exceptions described exceed the number of unallowable exceptions and questioned costs. These
transactions are summarized in Exhibit C.
11
   Projecting our sample results from the transactions valued at $31,018,801, we are 95 percent confident the value
of questionable transactions was $4,159,268 plus or minus $1,805,902.

                                                                         Controls Over Student Travel Funds
                                                         12                    Report No. 26-14-001-03-370
                                           U. S. Department of Labor – Office of Inspector General


Centers did not always ensure bus rentals were adequately competed.

As part of our testing, we also looked for evidence that purchase card transactions
exceeding the micro-purchase threshold of $3,000 were competitively bid or adequate
justification was provided that competition was not required. Specifically, we tested
13 purchase transactions, totaling $545,243, for evidence of adherence to these FAR
principles: (1) postings in the Government-wide Point of Entry (GPE), currently
FedBizOpps, for proposed contract actions more than $25,000; (2) public
displays/solicitations, oral solicitations, or postings to the GPE for proposed contract
actions more than $15,000, but less than $25,000; (3) evidence of solicitations of at
least three vendors for actions not required to be posted to the GPE (e.g. actions
between $3,000 but less than $25,000); and (4) justifications for using sole-source
vendors where applicable. We found 9 transactions, totaling $474,038, for charter bus
rentals to transport students where 5 centers and their respective operators were
unable to show they adhered to these principles. See Table 3.

Table 3: Nine Bus Rentals That Were Not Competitively Bid
                                                                                           Amount
                            Description of
Requirements                                    Center (Operator)          Date      (No. of Buses
                            Non-Compliance
                                                                                           Rented)
Posting in the GPE for      Centers were        Earle C. Clements          7/3/12    $123,149 (20)
proposed contract           unable to provide   (MTC)                      1/9/12     $70,479 (12)
actions more than           documentation to                               7/3/12     $67,485 (20)
$25,000 per FAR             show these                                     1/5/12     $55,045 (12)
5.101(1).                   transactions were
                            posted in the       Gary (MTC)                1/11/11     $58,920 (36)
                            GPE.
                                                Roswell (Career            1/6/12     $30,359 (10)
                                                Opportunities, Inc.)

Documentation               Centers were        Loring (Career            8/10/12      $33,494 (9)
showing justification       unable to provide   Systems
(e.g., suppliers and        adequate            Development)              1/23/12      $28,728 (6)
quotes received, the        documentation to
absence of                  show sole-source    Pine Knot (U.S.           2/17/12      $6,379 (13)
competition, other          basis.              Department of
award factors), as well                         Agriculture)
as price
reasonableness, for
sole-source
procurement per FAR
13.106-1 and
13.106-3.

                                                   Totals                           $474,038 (138)
Source: OIG analysis of Job Corps' data



                                                                 Controls Over Student Travel Funds
                                                  13                   Report No. 26-14-001-03-370
                                                U. S. Department of Labor – Office of Inspector General



Four of these five centers (Earle C. Clements, Gary, Roswell, and Pine Knot) used
Transcor to procure their rentals and relied on the travel agency to obtain competitive
pricing in accordance with the FAR principles. By delegating these tasks, center
management did not always have the necessary information to make informed
decisions and ensure its centers obtained best value. For example, Gary center
management incorrectly believed Transcor was the government's authorized provider
for student transportation and therefore was not required to bid. Center management at
Roswell and Pine Knot, respectively, indicated that it did not bid its transaction or have
documentation to support its sole-source selection. The other center (Loring) rented
directly from the charter bus company.

Transcor told us that it obtains competitive bids on behalf of centers as often as
practical. However, bids were sometimes not obtained because of changing leave dates
(e.g., summer break), lack of advance notice of travel, and carriers refusing to bid
because of past damage to buses caused by Job Corps’ students. We confirmed the
centers received services for all nine transactions noted in Table 3. However, we
believe improved fiscal management by centers to ensure best value when making
future purchases is needed.

Management of centers’ government purchase cards needs improvement.

Better management of center purchase cards by the center operators and Job Corps’
national and regional offices is needed to ensure claimed costs are reasonable;
allowable; comply with applicable policies, requirements, and federal guidance; and
paid timely. The centers lacked basic controls that increased the risk of fraud, waste,
and abuse. Specifically, centers did not: (1) ensure all travel expenses were allowable,
necessary, and reasonable; (2) require signed supervisory approvals of estimated costs
before the trips began (i.e., travel authorizations) and actual claimed costs (i.e., travel
vouchers); and (3) always maintain documentation (e.g., receipts, invoices, bid
documentation) to support claimed costs. This occurred even though the FTR, DLMS,
OMB A-123, and Standards for Internal Control in the Federal Government emphasized
the importance of such controls. Centers also did not have effective processes in place
to ensure adherence to the competitive sourcing requirements provided in the FAR.

We also found Job Corps did not require its staff to regularly review or monitor its
centers' government purchase card expenses for student travel to ensure expenses
were prudent and allowable in accordance with the FTR and DLMS. 12 Instead, Job
Corps placed reliance on the centers to verify the reasonableness and allowability of
their own expenses. Job Corps also did not require centers to establish and adhere to
student travel budgets and utilize discounted government airfares whenever possible.
Budgets are essential cost management tools and the budget review process could
have prevented and/or detected the submission of wasteful spending on
non-government airfares and merchant fees, unsupported government purchase card
charges, and procurement of buses without ensuring best value.
12
     FTR, Section 301-71.203b; and DLMS-7, Chapter 1, 1-11.4

                                                                   Controls Over Student Travel Funds
                                                       14                Report No. 26-14-001-03-370
                                     U. S. Department of Labor – Office of Inspector General


Job Corps concurred that a higher level of monitoring is warranted. During the course of
the audit, Job Corps took action to address some of our concerns. Corrective actions
included developing Job Corps-specific directives that emphasize and enhance existing
policies and requirements provided in the FTR, DLMS, and the FAR. Furthermore, it
underscored the importance of center, regional, and national office monitoring of travel
card expenses, including record keeping and contracting for services requirements. Job
Corps also indicated it is considering prohibiting the use of government purchase cards
for charter bus expenses. We believe effective implementation of internal controls over
government purchase card transactions could result in better use of an estimated $4.7
million in Job Corps funds – the aggregate of $496,258 ($415,758 + $80,500) in
unnecessary costs spent on non-government airfares and merchant fees and our
estimate of $4.2 million in unsupported travel purchases.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training require Job
Corps' centers to:

1) Improve internal controls to ensure center student travel expenses are allowable,
   necessary, prudent, and competitively bid. This includes reviewing student travel
   expenses for compliance with the FTR, OMB, DLMS, and Job Corps’
   requirements and adherence to the competitive sourcing requirements provided
   in the FAR, as well as ensuring adequate supporting evidence (e.g., invoices,
   receipts, bid documentation) is maintained and readily available for examination.
Further, we recommend the Assistant Secretary for Employment and Training
require Job Corps to:

2) Improve Job Corps’ internal controls, such as management processes and
   oversight, to ensure center student travel expenses are allowable, necessary,
   prudent, and competitively bid. These improvements include requiring centers to
   utilize discounted government airfares whenever possible; establishing budgets for
   each center and ensuring adherence to established spending limits; and regularly
   reviewing expenses claimed by centers for compliance with the FTR, OMB, DLMS,
   and Job Corps’ requirements, adherence to the competitive sourcing requirements
   provided in the FAR, and adequate supporting documentation (e.g., invoices,
   receipts, bid documentation).

3) Determine why its centers’ government purchase card accounts were suspended
   and improve necessary controls to ensure the corresponding bills are reviewed for
   compliance with the FTR, OMB, DLMS, and Job Corps’ requirements and paid
   timely.

4) Collect $289,224 ($249,477 + $39,747) in questioned costs from the applicable
   center operators.



                                                        Controls Over Student Travel Funds
                                           15                 Report No. 26-14-001-03-370
                                      U. S. Department of Labor – Office of Inspector General


ETA’S RESPONSE

The Assistant Secretary for Employment and Training agreed with our results and
recommendations and stated ETA and Job Corps recognize Job Corps’ student
transportation represents a significant investment in public funds and must be managed
efficiently and effectively. ETA stated it has taken steps to address the issues identified
in the report, which include placing strict controls over prepaid debit and purchase cards
and placing a greater emphasis on monitoring. ETA stated it will take additional steps
to: ensure all student travel expenses are allowable, necessary, prudent, and well
documented; ensure center operators’ contracting programs utilize a competitive
process for procuring travel services; and pursue collection of questioned costs. In
addition, ETA explained the centers’ purchase cards were suspended for non-payment
due to improper setup within the New Core Financial Management System purchase
card processing module and that it will continue to work with the Office of Chief
Financial Officer to ensure proper and timely payments and avoid account suspensions.

We appreciate the cooperation and courtesies that ETA and Job Corps personnel
extended to the OIG during this audit. OIG personnel who made major contributions to
this report are listed in Appendix D.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                         Controls Over Student Travel Funds
                                            16                 Report No. 26-14-001-03-370
            U. S. Department of Labor – Office of Inspector General




Exhibits





                               Controls Over Student Travel Funds
                  17                 Report No. 26-14-001-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                            Controls Over Student Travel Funds
               18                 Report No. 26-14-001-03-370
                                                U. S. Department of Labor – Office of Inspector General


                                                                                                       Exhibit A
Misuse of Prepaid Debit Cards at 95 Centers

                                                                      Number of Cards              Questioned
Center                             Location                                      Used                    Costs
1. Clearfield                      Clearfield, UT                                 445               $12,538.14
2. Trapper Creek                   Darby, MT                                       30                $4,366.72
3. Homestead                       Homestead, FL                                  161                $4,276.13
4. Earle Clements                  Morganfield, KY                                181                $4,275.81
5. Iroquois                        Medina, NY                                      88                $3,829.53
6. Charleston                      Charleston, WV                                 117                $3,803.68
7. Whitney Young                   Simpsonville, KY                               101                $3,605.36
8. Cassadaga                       Cassadaga, NY                                  102                $3,279.82
9. Frenchburg                      Frenchburg, KY                                 132                $3,273.58
10. Treasure Island                San Francisco, CA                               89                $2,563.39
11. Great Onyx                     Mammoth Cave, KY                                99                $2,482.79
12. Atterbury                      Edinburgh, IN                                   63                $2,169.91
13. St. Louis                      St. Louis, MO                                   68                $1,945.01
14. Gary                           San Marcos, TX                                  26                $1,437.78
15. Weber Basin                    Ogden, UT                                       42                $1,277.63
16. Mingo                          Puxico, MO                                      34                $1,229.25
17. Cascades                       Sedro-Woolley, WA                               52                $1,203.25
18. Flint/Genesee                  Flint, MI                                       24                $1,166.01
19. Flint Hills                    Manhattan, KS                                   35                $1,069.66
20. Excelsior Springs              Excelsior Springs, MO                           45                $1,065.47
21. Atlanta                        Atlanta, GA                                     49                $1,038.03

                                   Subtotals                                           1,983         $61,896.95

74 remaining centers
with questioned costs
less than $1,000 13                Various locations                                     958         $22,698.53

                                   Totals                                              2,941         $84,595.48
Source: OIG analysis of Job Corps' data


13
  These centers were comprised of Albuquerque, Blackwell, Blue Ridge, Boxelder, Brunswick, Carl D. Perkins, Cass,
Centennial, Cleveland, Collbran, Columbia Basin, Curlew, David L. Carrasco, Dayton, Delaware Valley, Denison,
Detroit, Dr. Benjamin L. Hooks, Edison, Exeter, Flatwoods, Fort Simcoe, Fred G. Acosta, Gainesville, Gerald R. Ford,
Glenmont, Golconda, Grafton, Guthrie, Hubert Humphrey, Harpers Ferry, Hawaii, Jacksonville, Jacobs Creek, Joliet,
Keystone, Kittrell, Laredo, Little Rock, Long Beach, Los Angeles, Lyndon B. Johnson, New Haven, North Texas,
Northlands, Oconaluftee, Old Dominion, Oneonta, Ouachita, Paul Simon, Penobscot, Pine Knot, Pine Ridge, Pinellas
County, Pittsburgh, Potomac, Quentin-Burdick, Red Rock, Roswell, Sacramento, San Diego, San Jose, Schenck,
Shriver, Sierra Nevada, Springdale, Timber Lake, Treasure Lake, Tulsa, Turner, Westover, Wolf Creek, Woodland,
and Woodstock.

                                                                        Controls Over Student Travel Funds
                                                        19                    Report No. 26-14-001-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                            Controls Over Student Travel Funds
               20                 Report No. 26-14-001-03-370
                               U. S. Department of Labor – Office of Inspector General


                                                                  Exhibit B
Examples of Centers’ Government Purchase Card Accounts Suspended for
Delinquency or Non-Payment during October 2009 through April 2013

                                          Months During Which Cards Were
Job Corps Region   Center Name
                                          Suspended
Boston             Arecibo                2/10 – 12/12
                   Barranquitas           2/10 – 9/12
                   Cassadaga              10/09 – 1/13
                   Delaware Valley        10/09 – 11/12
                   Edison                 05/11 – 10/12
                   Glenmont               1/10 – 10/12
                   Oneonta                12/09 – 10/12
                   Iroquois               2/10 – 10/12
                   Ramey                  2/10 – 11/12
                   South Bronx            6/10 – 11/12
                   Westover               2/11 – 3/11

Chicago            Atterbury              4/13
                   Blackwell              4/13
                   Cincinnati             4/13
                   Cleveland              4/13
                   Dayton                 4/13
                   Denison                4/13
                   Detroit                4/13
                   Excelsior Springs      5/11 – 7/11 and 4/13
                   Flint Hills            4/13
                   Flint/Genesee          4/13
                   Gerald R. Ford         4/13
                   Golconda               4/13
                   Hubert H. Humphrey     4/13
                   Joliet                 4/13
                   Milwaukee              4/13
                   Mingo                  4/13
                   Ottumwa                4/13
                   Paul Simon             4/13
                   Pine Ridge             4/13
                   St. Louis              4/13




                                                  Controls Over Student Travel Funds
                                     21                 Report No. 26-14-001-03-370
                                          U. S. Department of Labor – Office of Inspector General


                                                     Months During Which Cards Were
Job Corps Region             Center Name
                                                     Suspended
San Francisco                Cascades
                             Centennial
                             Columbia Basin
                             Fred G. Acosta
                             Los Angeles             3/11 – 4/11, 10/11, 3/12 – 4/12, and
                             Sacramento              3/13 – 4/13
                             San Diego
                             Springdale
                             Timber Lake
                             Tongue Point
                             Wolf Creek
Source: OIG analysis of Job Corps' data




                                                             Controls Over Student Travel Funds
                                                22                 Report No. 26-14-001-03-370
                                               U. S. Department of Labor – Office of Inspector General


                                                                                           Exhibit C
Questioned Costs Paid By Centers’ Government Credit Cards

                                                                Number of
                                                                                       Questioned
Center                                    Location               Purchase
                                                                                            Costs
                                                               Transactions
 Golconda                             Golconda, IL                   3                  $23,015.93
 Kicking Horse                         Ronan, MT                     7                   $7,329.68
 Anaconda                            Anaconda, MT                    4                   $3,874.40
 Oconaluftee                         Cherokee, NC                    2                   $2,638.90
 Denison                               Denison, IA                   1                    $708.70
 Jacobs Creek                          Bristol, TN                   1                    $567.00
 Exeter                                 Exeter, RI                   1                    $543.84
 Schenck                           Pisgah Forest, NC                 1                    $280.00
 Milwaukee                           Milwaukee, WI                   1                    $212.00
 Earle C. Clements                  Morganfield, KY                  1                    $118.00
 Muhlenberg                          Greenville, KY                  1                    $105.50
 Cincinnati                          Cincinnati, OH                  2                      $51.89
 St. Louis                            St. Louis, MO                  1                      $50.00
 Gary                               San Marcos, TX                   1                      $49.99
 Excelsior Springs                Excelsior Springs, MO              1                      $49.50
 Timber Lake                         Estacada, OR                    1                      $40.00
 Flint/Genesee                           Flint, MI                   1                      $38.00
 Tongue Point                          Astoria, OR                   1                      $30.00
 Loring                              Limestone, ME                   2                      $22.00
 Blackwell                             Laona, WI                     1                      $22.00
 Total                                                              34                  $39,747.33
Source: OIG analysis of Job Corps' data




                                                                  Controls Over Student Travel Funds
                                                     23                 Report No. 26-14-001-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                            Controls Over Student Travel Funds
               24                 Report No. 26-14-001-03-370
              U. S. Department of Labor – Office of Inspector General




Appendices





                                 Controls Over Student Travel Funds
                    25                 Report No. 26-14-001-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                            Controls Over Student Travel Funds
               26                 Report No. 26-14-001-03-370
                                     U. S. Department of Labor – Office of Inspector General


                                                                              Appendix A
Objectives, Scope, Methodology, and Criteria

Objective

Our audit objective was to answer the following question:

      Were all student travel expenses claimed by Job Corps centers allowable
      and in accordance with applicable policies and requirements?

Scope

This report reflects the audit work that was conducted at ETA and Job Corps’
headquarters in Washington, DC, and Job Corps’ regional office in San Francisco, CA.
Our work generally covered the time period July 1, 2011, to September 30, 2012. For
instances where possible patterns of errors were detected, we expanded our scope to
include October 1, 2009, to April 30, 2013.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

To accomplish our audit objective, we interviewed management and staff at Job Corps,
ETA, center operators, and Transcor. We reviewed applicable laws, regulations, and
policies; reviewed applicable Job Corps’ and center processes and controls. We
considered the internal control elements of control environment, risk assessment,
control activities, information and communication, and monitoring during our planning
and substantive audit phases and evaluated relevant controls.

To assess the reliability of prepaid debit card data provided by Transcor, we:
(1) compared the value and number of cards purchased to actual charges on each
centers’ Citibank student travel card accounts; (2) performed detailed testing of all
centers located in three Job Corps regions; (3) and performed testing to detect missing
values, invalid identifiers, and obvious errors. To assess the reliability of Citibank
student travel card data received from Job Corps’ database, we selected a non-
statistical sample of five centers over a three month period, and compared the hard­
copy records issued by Citibank and maintained at the regional office to the data
represented in the database.

Additionally, we interviewed Job Corps and Transcor officials and staff responsible for
the recordkeeping and electronic maintenance of the data to identify process controls.

                                                        Controls Over Student Travel Funds
                                           27                 Report No. 26-14-001-03-370
                                      U. S. Department of Labor – Office of Inspector General


When we found discrepancies, such as missing records, we brought them to the
attention of the Job Corps’ national office and Transcor officials, as appropriate.

We determined that the data were sufficiently reliable for the purposes of our report.

Prepaid Debit Cards

To accomplish our audit objective, we interviewed Job Corps, ETA, and center
operators, and Transcor management and staff; reviewed applicable laws, regulations,
and policies; and reviewed applicable Job Corps and center processes and controls.

We requested a complete list of prepaid debit cards purchased by all 125 centers and
found Job Corps was unable to provide this information because neither Job Corps nor
the centers tracked and monitored card activities. However, we obtained this
information from Transcor for the 104 centers that purchased debit cards from them.
Transcor provided us purchase detail for cards that were used during July 1, 2011,
through September 30, 2012. For instances where possible patterns of errors were
detected, we expanded our scope to include cards used during December 1, 2009,
through March 31, 2013. In total, Transcor provided details for 17,796 cards issued to
the 104 centers during the periods we reviewed.

We analyzed the purchases made with each of the 17,796 cards to determine whether
they complied with the FTR, DLMS, and Job Corps' policy for allowable and reasonable
student travel expenses and spending limits. Specifically, we reviewed card activity for
potential unallowable purchases at vendors unrelated to student travel at retailers such
as Ross Stores, JC Penney, Best Buy, Wal-Mart, and numerous wireless telephone
service providers; and we analyzed the data by card, date, vendor, and value in order to
identify any patterns that indicated potential misuse.

For the Muhlenberg center, we also relied on the results of investigations conducted by
Horizon Youth Services, center management, and Job Corps during our audit. For the
Tongue Point center, we relied on feedback from MTC, center management, and Job
Corps.

Allegations of Misuse at Miami Job Corps Center

To assess the merits of the allegations of misuse at the Miami center, we obtained
detailed prepaid debit card data covering all activity several months before and after the
alleged misuse, July 1, 2010, through September 30, 2012. We analyzed the data by
card, date, vendor, value, and geographic location (e.g. distance between center and
vendor) in order to identify any patterns of use that indicated potential misuse. We
documented our results and received feedback from the center operator, Job Corps’
Atlanta regional office and Job Corps’ national office on our preliminary conclusions.

We also relied on the results of investigations conducted by ResCare, Inc., and Job
Corps during our audit.

                                                         Controls Over Student Travel Funds
                                            28                 Report No. 26-14-001-03-370
                                      U. S. Department of Labor – Office of Inspector General



Centers’ Government Purchase Card Transactions

We statistically sampled 215 purchase transactions, totaling $624,491, or 2 percent of
the $31 million in student travel charges to the centers' government purchase cards
during July 1, 2011, through September 30, 2012. We determined whether the travel
expenses were for Job Corps students; supported by travel authorizations, claims, and
receipts/invoices in accordance with the FTR and DLMS guidance; and met Job Corps'
requirements for chargeable travel (i.e., allowable). In cases where student travel
charges exceeded the micro-purchase threshold established by the FAR, we also
reviewed additional procurement steps as described in the FAR, including procurement
solicitation and bid compliance.

Reimbursed Student Travel Charges

We selected a non-statistical sample of center charges reported on the ETA-2110
financial statements for the scope period. Selected charges were tested for appropriate
supporting documentation, including proper invoices, authorizations and reviews.

Criteria

We used the following criteria to perform this audit:

   GAO Government Auditing Standards
   GAO Standards for Internal Control
   OMB Circular A-123, Appendix B, Management's Responsibility for Internal Control
   FAR
   FTR
   DLMS 7 - General Travel Regulations
   Job Corps’ PRH
   Job Corps’ Program Instruction Notices




                                                         Controls Over Student Travel Funds
                                            29                 Report No. 26-14-001-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                            Controls Over Student Travel Funds
               30                 Report No. 26-14-001-03-370
                                 U. S. Department of Labor – Office of Inspector General


                                                                          Appendix B
Acronyms and Abbreviations

DLMS            U.S. Department of Labor Manual Series

DOL             U.S. Department of Labor

ETA             Employment and Training Administration

FAR             Federal Acquisition Regulation

FTR             Federal Travel Regulation

GAO             United States Government Accountability Office

GPE             Government Point of Entry

Job Corps       Office of Job Corps

MTC             Management and Training Corporation

OIG             Office of Inspector General

OLRFI           Office of Labor Racketeering and Fraud Investigations

OMB             Office of Management and Budget

PRH             Job Corps’ Policy and Requirements Handbook

PY              Program Year

Transcor        Transcor, Inc.




                                                    Controls Over Student Travel Funds
                                       31                 Report No. 26-14-001-03-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                            Controls Over Student Travel Funds
               32                 Report No. 26-14-001-03-370
                                              U. S. Department of Labor – Office of Inspector General


                                                                                                  Appendix C
ETA Response to Draft Report


  U.S. Department of Labor                    Assistant Secretary for
                                              Employment and Training
                                              Washington, D.C. 20210


        ft 22.


       MEMORANDUM FOR                ELLIOT P. LEWIS
                                     Assistant Inspector General for Audit

       FROM:                         E~C S~LEZNOW~'t,~ ct~J:~ .
                                          M.                               /c'tv·
                                     Actmg Assistant Secretary           I
                                     Employment and Training Administration

       SUBJECT:                      OIG Audit, "Job Corps Needs to Improve Controls Over Student
                                     Travel Funds," Draft Report #26-14-00 1-03-370

       Thank you for the opportunity to comment on this draft audit report. In May 20 I 2, the
       Employment and Training Administration's (ETA) Office of Job Corps (OJC) self-reported and
       requested that the Office of Inspector General (OIG) review allegations of unauthorized use of
       prepaid debit cards related to Job Corps student travel. ETA, which manages and administers
       OJC, appreciates the OIG's broader audit to examine whether all student travel expenses claimed
       by Job Corps centers were in accordance with applicable policies and requirements.

       ETA and OJC are committed to ensuring Job Corps students are provided w ith transportation
       that supports the program's mission and is safe, economical, and accountable. We recognize that
       Job Corps' student transportation represents a significant investment of public funds and must be
       managed efficiently and effectively.

       ETA has taken steps to address the issues identified in the draft report and will take additional
       steps to ensure all applicable requirements are met. ETA strongly agrees that effective controls
       and oversight are necessary to ensure that student travel expenses are appropriate, reasonable,
       and in compliance with regulations and requirements.

       ETA provides the following comments on the findings and recommendations in the draft report.


       Finding - Results (General)- Hundreds of thousands of dollars in government funds were
       misused or wasted because Job Corps lacked basic internal controls.

       ETA Response: ETA takes seriously any findings of misuse or waste of government funds, and
       has taken appropriate steps to improve the oversight of Job Corps student travel. To date, ETA
       has undertaken the following activities to improve internal controls:

          •   ETA placed strict controls over prepaid debit card use and inventories (Job Corps
              Information Notice 12-45, February 22, 2013).




                                                                        Controls Over Student Travel Funds
                                                      33                      Report No. 26-14-001-03-370
                                       U. S. Department of Labor – Office of Inspector General




   •   The Citibank credit card payment delinquency issue was resolved in collaboration with
       the Office of Financial Administration (OFA) and the Office of the Chief Financial
       Officer (OCFO). ETA now closely monitors account status to confirm that accounts are
       current.

   •   OJC hosted a mandatory conference call on Student Travel Management in November
       2013. Participants included regional office and contract center staff responsible for the
       oversight of student travel, OFA and OJC. During this call, OJC stressed the importance
       of proper monitoring and documentation.

ETA will take additional steps to ensure that student travel expenses are allowable, necessary,
prudent, and well documented, and that center operators' contracting programs utilize a
competitive process for procuring travel services. Moreover, ETA will ensure that student travel
management in Job Corps is efficient and provides the best value to the Department. Specific
steps include:

   •   Although the Job Corps Policy and Requirements Handbook (PRH), Department of
       Labor Manual Series (DLMS) Chapter 7, and the Federal Travel Regulation (FTR)
       provide travel policy and requirements, a directive will be developed to provide
       additional Job Corps-specific guidance, including an amendment to the PRH and
       guidance on recordkeeping.

   •   ETA will also place a greater emphasis on monitoring.

   •   A collaborative effort among DOL offices is being launched to develop this guidance and
       other controls or tools that may be necessary.


Result A) -- Job Corps' inadequate controls over prepaid debit cards resulted in misuse of
student travel funds by center staff and students.

Finding: Prepaid Debit Cards Were Misused at 98 Centers.

ETA Response: ETA took steps to strengthen controls over prepaid debit cards, the source of
the majority of questioned costs noted by OIG in the draft report. For example, Job Corps
Program Information Notice 12-45, dated February 22, 2013, placed several restrictions on
prepaid debit cards. These included the following:

   •   Providing cards only when on-line check-in is not available. Requiring students to sign
       for receipt of the card(s) after being informed verbally and in writing of the sole
       authorized purpose of the card(s) and that use of the card for any other purpose is
       unauthorized and will be charged to the student;

   •   Prohibiting use of the cards by staff;




                                                               Controls Over Student Travel Funds
                                                34                   Report No. 26-14-001-03-370
                                      U. S. Department of Labor – Office of Inspector General




   •   Limiting the number of cards to 10 cards per center at a time, and not permitting larger
       orders, except as approved by the Regional Office for a designated period of high-volume
       travel only;

   •   Recording the details of each card by the center, including the card number, amount,
       expiration date, and responsible person for safeguarding the cards; and

   •   Returning cards older than 90 days back to the appropriate vendor.

Finding: Prepaid Debit Cards Were Not Managed Efficiently.

ETA Response: As noted above, ETA took steps, including limiting the number of cards at
each center and requiring the return of unused cards. Guidance, controls, and monitoring will be
developed, and will address the efficient management of all means of payment used for student
travel.

Finding: Controls Over Prepaid Debit Cards Need Improvement.

ETA Response: As noted above, ETA took steps to improve controls, including requiring
logging of prepaid debit cards and requiring that students be informed of authorized and
unauthorized uses. Guidance, controls, and monitoring will be developed, and will implement
improved controls on all means of payment used for student travel.


Rtlsult B) -- Student travel purchased with government purchase cards was not managed
effectively and efficiently.

Finding: Centers' Government Purchase Cards Were Frequently Suspended For
Delinquency or Non-payment and Cost Job Corps at Least $496,258.

ETA Response: Regarding the suspension ofthe centrally-billed travel card accounts, ETA
requested support from, and worked closely and extensively with, the OCFO to resolve this
problem. The solution involved additional payments to the issuing bank, Citibank, and was
completed in August 2013. The credit cards were suspended for non-payment due to improper
set up within the New Core Financial Management System (NCFMS) purchase card processing
module. Prior to August 2013, ETA worked with Citibank to secure extensions and avoid
suspensions whenever possible. Due to these joint efforts, no accounts have been delinquent
since April of2013, and payments are currently being made on time and are monitored by ETA
staff.                                                                                    ·

Finding: Centers' Government Purchase Card Expenses Lacked Adequate Supporting
Documentation.

ETA Response: Regarding the lack of adequate supporting documentation, ETA will ensure
that the requirements for proper documentation are included in the guidance and controls that
will be developed, and that documentation is appropriately monitored to ensure compliance.




                                                              Controls Over Student Travel Funds
                                              35                    Report No. 26-14-001-03-370
                                       U. S. Department of Labor – Office of Inspector General




ETA offers that Table 2 and Exhibit B should be amended to indicate that cards were suspended
during the listed months, not for the entirety of the months listed, or alternatively should list the
dates of suspension to the day. The current listings are misleading and overstate the periods
involved. For example, the account in the Chicago region was listed as suspended for one
month, April 2013 (4/13). In fact, the account was suspended for .only 2 business days (i.e., from
April25, 2013 to April29, 2013 with an intervening weekend), after which ETA bad the
suspension lifted.

Finding: Centers Did Not Always Ensure Bus Rentals Were Adequately Competed.

ETA Response: Regarding all transportation issues, including bus rentals, OJC will provide
information to the Office of Contracts Management (OCM) Contractor Purchasing System
Review (CPSR) Team for further analysis of the contract files, including a review of the
solicitation and negotiation documents. OCM's CPSR Team reviews and approves the center
operator' s purchasing system and inspects periodically for compliance. Those systems not in
compliance are disapproved and all center procurements (sub-contract awards) must be approved
by an OCM Contracting Officer. ETA is taking steps to improve internal controls at Job Corps
centers, and to enhance review and monitoring at the regional and national levels for the
improved management of centrally billed travel card accounts by forming a work group to
develop guidance and controls that are efficient and effective.

ETA provides the below responses to each recommendation in the draft report as follows:


RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training Administration
require Job Corps' centers to:

1) Improve internal controls to ensure center student travel expenses are allowable,
   necessary, prudent, and competitively bid. This includes reviewing student travel
   expenses for compliance with the FfR, OMB, DLMS, and Job Corps' requirements
   and adherence to the competitive sourcing requirements provided in the FAR, as well
   a~ ensuring adequate supporting evidence (e.g., invoices, receipts, bid documentation) is
   maintained and readily available for examination.

ETA Response: ETA has required Job Corps centers to address a number of issues targeted in
this recommendation. For example, ETA required centers to adhere to strict controls over
prepaid debit cards, as described previously under Result A.

Recommendation: Further, we recommend the Assistant Secretary for Employment and
Training Administration requires Job Corps to:

2) Improve Job Corps' internal controls, such as management processes and oversight, to
   ensure center student travel expenses are allowable, necessary, prudent, and




                                                                Controls Over Student Travel Funds
                                               36                     Report No. 26-14-001-03-370
                                      U. S. Department of Labor – Office of Inspector General




   competitively bid. These improvements include requiring centers to utilize discounted
   government airfares whenever possible; establishing budgets for each center and
   ensuring adherence to established spending limits; and regularly reviewing expenses
   claimed by centers for compliance with the FfR, OMB, DLMS, and Job Corps'
   requirements, adher ence to the competitive sourcing requirements provided in the
   FAR, and adequate supporting documentation (e.g., invoices, receipts, bid
   documentation).

ETA Response: ETA has taken initial steps to improve internal controls and will implement
additional controls to ensure center student travel expenses are allowable, necessary, prudent,
and competitively bid. The initial steps include the development of a draft standard operating·
procedure for the review, payment, and reconciliation of individual student travel expenses.
Also, OJC hosted a mandatory conference call in November 2013, for OJC regional office and
center staff responsible for the oversight of student travel, to stress the importance of proper
monitoring and documentation. A work group is being formed to develop recommendations for
specific guidance and controls for: ensuring centers use GSA city-pair airfares whenever
possible; establishing budgets for each center and monitoring spending against established
spending limits; and reviewing expenses claimed by centers for compliance with applicable
requirements. These requirements include the FTR, OMB Circulars, the DLMS, and Job Corps'
requirements, adherence to the competitive sourcing requirements in the FAR, and adequate
supporting documentation. ETA will consider the work group's recommendations and
implement final guidance and controls.

3) Determine why its centers' government purchase card accounts were suspended and
   improve necessary controls to ensure the corresponding bills are reviewed for
   compliance with the FfR, OMB, DLMS, and Job Corps' requirements and paid timely.

ETA Response: The credit cards were suspended for non-payment due to improper set-up
within the NCFMS purchase card processing module. ETA will continue to work with OCFO to
ensure proper and timely payments and to avoid account suspensions. ETA will take steps to
ensure proper and efficient reviews of cred it card statements.

4) Collect $289,224 ($249,477 + $39,747) in questioned costs from the.applicable center
   operators.

ETA Response: ETA will pursue collection of questioned costs to the maximum extent feasible.
In addition, ETA, in its continued efforts to improve, will implement enhanced documentation
and monitoring as part of the collaborative effort noted above.


We anticipate the draft audit report's recommendations will be resolved as described above, and
can be closed upon completion of the corrective actions.

If you have questions about this response, please contact Grace A. Kilbane, National Director,
OJC, at (202) 693-3100.




                                                              Controls Over Student Travel Funds
                                              37                    Report No. 26-14-001-03-370
                                   U. S. Department of Labor – Office of Inspector General




cc:   Grace A. Kilbane, Office of Job Corps
      Linda Heartley, Office of Contracts Management
      Ron Sissel, Office of Financial Adrninjstration




                                                        Controls Over Student Travel Funds
                                           38                 Report No. 26-14-001-03-370
                                     U. S. Department of Labor – Office of Inspector General


                                                                              Appendix D
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director), Jon K. Ling
(Audit Manager), Steven Grubb and Catherine Christian (Team Leads), Arijit
Bandyopadhyay, Alexander Budge, and Ajit Buttar (Statistician).




                                                        Controls Over Student Travel Funds
                                           39                 Report No. 26-14-001-03-370
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:


Online:            http://www.oig.dol.gov/hotlineform.htm
Email:             hotline@oig.dol.gov

Telephone:         1-800-347-3756
                   202-693-6999

Fax:               202-693-7020

Address:           Office of Inspector General
                   U.S. Department of Labor
                   200 Constitution Avenue, N.W.
                   Room S-5506
                   Washington, D.C. 20210
